E-Mail Address: 775 H Street, N.E.
Est Joa briefs@wilsonepes.com Washington, D.C. 20002

WSON-PE PRINTING
th

Web Site: Tel (202) 789-0096
eA www.wilsonepes.com Fax (202) 842-4896

No. 19-251

AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,
Vv.

XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS
THE ATTORNEY GENERAL OF CALIFORNIA,

Respondent.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on February 22, 2021, three (3) copies of the JOINT APPENDIX in the
above-captioned case were served, as required by U.S. Supreme Court Rule 29.5(c), on the
following:

AIMEE FEINBERG JOHN J. BURSCH
Deputy Solicitor General ALLIANCE DEFENDING FREEDOM
STATE OF CALIFORNIA 440 First Street, NW
DEPARTMENT OF JUSTICE Suite 600
1300 I Street Washington, DC 20001
Sacramento, CA 95814 Counsel for Thomas More Law Center

Counsel for Xavier Becerra, in his
Official Capacity as the Attorney
General of California

The following email addresses have also been served electronically:

derekshaffer@quinnemanuel.com
Aimee.Feinberg@doj.ca.gov

jbursch@ADFlegal.org L Ww Le

ROBYN DorRsEY WILLIS

WILSON-EPES PRINTING COMPANY, INC.
775 H Street, N.E.

Washington, D.C. 20002

(202) 789-0096

Sworn to and subscribed before me this 22nd day of February 2021.

 

GAN
NOTARY PUBLI
District of Columbia

My commission expires April 14, 2022.

 
